                          NATIONAL SCIENCE FOUNDATION
                                4201 Wilson Boulevard
                              ARLINGTON, VIRGINIA 22230



    OFFICE OF
INSPECTOR GENERAL




MEMORANDUM


DATE:          August 31, 2011

TO:            Martha A. Rubenstein
               Director and Chief Financial Officer
               Office of Budget, Finance, and Award Management (BFA/OAD)

               James H. Lightborne
               Division Director
               Division of Human Resource Development (EHR/HRD)


FROM:          Dr. Brett M. Baker /s/
               Assistant Inspector General for Audit

SUBJECT:       Limited Scope Review: Improvements in Grant Management Needed at
               the University of Alaska – Anchorage, OIG Report No. 11-1-017

        This memorandum report provides the results of our review of the University of
Alaska – Anchorage's (UAA) processes for managing NSF grants. The review was part
of an on-going series of limited scope evaluations being performed by the Office of
Inspector General (OIG) to provide oversight of funds provided by the American
Recovery and Reinvestment Act of 2009 (ARRA or Recovery Act). A prior report on the
University’s processes for quarterly ARRA reporting has been issued. Of 29 grants
totaling $12.8 million awarded by NSF as of March 31, 2010, eight awards totaling
$3.4 million (27 percent) were ARRA-funded. Considering the increased accountability
for Recovery Act funds and the significant increase in total NSF funding in the past two
years, it is important that UAA has the capabilities and systems in place to provide proper
stewardship of federal assistance funds. This report addresses our limited scope
evaluation of whether UAA has adequate internal controls in place to provide
accountability over NSF grant funds. Detailed description of background, objectives,
scope, and methodology can be found in Appendix A.

       Our limited scope review found that UAA generally has a well established federal
grants management program. Specifically, the University has generally established
sound grant management policies and procedures to ensure compliance with federal and
NSF award requirements. In addition, the University’s Grants and Contract Services staff
is knowledgeable and have a high commitment for ensuring a fully compliant federal
grants management program. However, our review identified three areas where
improvements are needed to be fully compliant with federal and NSF grant requirements.
Specifically, UAA needs to (i) improve management of its $1.3 million minority alliance
award, 1 (ii) revise its labor effort reporting process to ensure reliable confirmation of all
salary charges to NSF grants, and (iii) improve its property management system to
safeguard equipment purchased with NSF funds.

       A draft of this memorandum was provided to UAA management for its review
and comment. In addition, a written outline of the review results was presented to the
University at the completion of our onsite review work. UAA generally concurred with
the audit findings and recommendations and agreed to take appropriate corrective actions.
However, continued University vigilance is required to ensure all costs charged to its
$1.3 million minority alliance award are allowable per federal and NSF grant
requirements. UAA’s written response to the draft report can be found in its entirety in
Appendix B.

        We consider UAA’s internal control procedural weaknesses identified in the audit
findings to be significant. Accordingly, we request that your office work with the
University and the cognizant audit agency, the Office of Naval Research (ONR), to
develop a written Corrective Action Plan detailing specific actions taken and/or planned
to address each audit recommendation. Milestone dates should be provided for corrective
actions not yet completed.

        To help ensure the recommendations are resolved within six months of audit
report issuance pursuant to Office of Management and Budget Circular A-50, please
coordinate the development of the Corrective Action Plan with our office during the
resolution period. Each audit recommendation should not be closed until NSF, in
coordination with ONR, determines that UAA has adequately addressed the
recommendations and proposed corrective actions have been satisfactorily implemented.
Please note that we have sent a copy of the audit report under separate cover to Ms.
Debbie Rafi, Director of the Indirect Cost Branch, ONR.

Cc:     Mary Santonastasso, Division Director, DIAS
        Dale Bell, Deputy Division Director, DIAS
        Alex Wynnyk, Branch Chief, CAAR/DIAS
        James Hicks, Program Director, LSAMP Program, EHR/HRD
        Karen Tiplady, Division Director, DGA




1
         NSF funding for the Louis Stokes Alliance for Minority Participation (LSAMP) award 0602742
totaled $1,300,963 at the time of our April 2010 onsite review. Funding for the award was increased by
$475,198 per amendment 004 on September 9, 2010, increasing total funding to $1,776,161.

                                                   2
                             Findings and Recommendations
Finding 1 – Improvement Needed in Management of $1.3 Million Award

        UAA needs to improve the management of its $1.3 million Louis Stokes Alliance
for Minority Participation (LSAMP) award 2 to ensure proper stewardship of NSF funds.
Our review disclosed that UAA inappropriately (i) expended $533,144 or 41 percent of
total award funds for project activities outside the approved award scope and (ii) charged
$78,093 of unallowable entertainment, food, and other costs. Specifically, when two
major subrecipients withdrew from the LSAMP Alliance partnership, UAA did not obtain
required NSF approval to expend the $533,144 of subaward funding for other project
purposes. In addition to the charging of unallowable award costs, our review disclosed
that the University's frequent use of cost transfers further impacted the integrity of the
LSAMP award charges.

        As a result of the award management weaknesses identified, there is less
assurance that UAA expended funds on LSAMP project activities with the greatest merit
and broad impact for achieving NSF's program goal of increasing minority student
participation in science, technology, engineering, and mathematics (STEM) disciplines
on a nationwide basis. This occurred because (i) responsible University LSAMP
program officials lacked sufficient knowledge and expertise in federal and NSF award
requirements to ensure proper financial and administrative management of award funds
and (ii) the University's Grants and Contract Services office did not adequately monitor
award expenditures to ensure compliance with contractual NSF award terms and
conditions.

Federal and NSF Award Requirements

        OMB regulations establish administrative requirements and cost principles for
managing federal assistance awards. Accordingly, the NSF award terms and conditions
specifically require grantees “to comply with the applicable Federal requirements for
cooperative agreements and to the prudent management of all expenditures . . .
Documentation for each expenditure or action affecting this award must reflect
appropriate organizational reviews or approvals that should be made in advance of the
action . . . " Further, the award agreement requires prior written NSF approval for any
significant project change, including a change in the objectives or scope of an award.

        In addition, the LSAMP program has additional NSF programmatic award terms
and conditions to ensure Alliance partnership institutions achieve their shared goal to
significantly increase the number and quality of underrepresented minority students who
graduate with a degree in STEM disciplines. Specifically, section 1 of the LSAMP terms
and conditions state that "requests to make any changes to personnel, organizations,
and/or partnerships specifically named in the proposal that have been approved as part of
this award, shall be submitted in writing to the cognizant NSF Program Official for
2
         NSF funding for the Louis Stokes Alliance for Minority Participation (LSAMP) award 0602742
totaled $1,300,963 at the time of our April 2010 onsite review. Funding for the award was increased by
$475,198 per amendment 004 on September 9, 2010, increasing total funding to $1,776,161.

                                                   3
approval prior to any changes taking effect." Thus, it is clear that the NSF award
agreement for the LSAMP award required prior NSF approval if there was a change in
the Alliance partnership organizations.

Lack of Adequate Management of LSAMP Subawards

        Our review of the LSAMP award disclosed that UAA did not properly
manage two of three subawards for Alliance partners to ensure compliance with
federal and NSF award requirements. Contrary to the NSF award agreement,
LSAMP program officials did not initiate required actions to obtain NSF approval
when two Alliance institutions, with $533,144 or 41 percent of total award funds,
withdrew from the project. Specifically, the University of Hawaii- Manoa and the
University of Washington became ineligible to fully participate in the UAA award
because both organizations joined other LSAMP alliances in their local regions.
Details of the subaward management weaknesses we identified follow:

    •   The University of Hawaii - Manoa's (UH) proposed subaward totaled $286,659
        or 22 percent of the $1.3 million and was to be awarded for the first three years of
        the LSAMP award. According to the NSF Program Officer, UH separated from
        the Alliance soon after the November 2006 effective award date. Accordingly,
        NSF requested the UAA principal investigator (PI) to find other institutions to
        join the Alliance partnership to replace UH, but this was never accomplished.

    •   The University of Washington's (UW) proposed subaward totaled $325,627 or 25
        percent of the $1.3 million and was to be awarded for the first three years of the
        LSAMP award. Our review disclosed that UAA did not establish the UW
        subaward agreement until January 9, 2008, 14 months after the effective date of
        the award. The subaward agreement was established for the performance period
        of November 1, 2006 to October 31, 2007 and authorized funding of $66,373. As
        such, UW performed work under the LSAMP award without a legal binding
        contract authorizing the project activities. In addition, the PI incorrectly
        authorized a second $81,994 payment for UW work primarily performed after its
        July 2009 withdrawal from the Alliance partnership. As a result, $69,225 was
        required to be credited to the LSAMP award because these funds were for work
        performed after UW withdrew from the Alliance. In total, only $79,142 or 24
        percent of the proposed UW subaward funds of $325,627 was expended for the
        subaward activities included in the original award proposal. The remaining
        $246,485 was spent by UAA on award costs other than for the UW subaward.

        Given that $533,144 of the total $612,286 for these two major partners was never
expended for proposed Alliance activities, the ability of the NSF LSAMP program to
most efficiently achieve its nationwide goals has possibly been compromised. A key
requirement for the LSAMP program is the establishment of an Alliance partnership of
several institutions to promote minority student participation in STEM disciplines.
However, the Alliance partnership was impacted when the Universities of Hawaii and
Washington withdrew, leaving only two campuses of the University of Alaska as
participating institutions. Thus, the LSAMP goal to increase the number and quality of
underrepresented minority STEM students in the Pacific region could not be effectively
                                             4
achieved when award-funded activities were occurring primarily only in the State of
Alaska.

         Our review disclosed that a significant portion of the $533,144 of subaward funds
was utilized to pay for UAA student scholarships. While NSF LSAMP program officials
stated that student-aid is an allowable program cost, they noted that scholarship funding
is not the major purpose or intent of the Program. As such, UAA utilization of a
significant portion of the $533,144 award funds for other purposes, without required NSF
approval, raises the question as to whether limited NSF funding was expended on
LSAMP project activities with the greatest merit and broad impact to achieve nationwide
program objectives. Furthermore, our review of the UAA award proposal disclosed that
"industrial partners to [the] program [were to] provide approximately $400,000 annually
in scholarships. . . " Thus, indicating that the NSF award funds were used for costs that
were already planned to be funded by other UAA partners.

Lack of Adequate Award Management Results in Unallowable Costs and Excessive Cost
Transfers

        Federal cost principles establish standards for specific types of expenses allowed
to be charged to federal assistance awards. Such standards explicitly preclude
entertainment costs and limits food costs allowed to be charged to federal awards. In
addition, NSF program officials stated that it had been made clear to LSAMP awardees at
annual NSF meetings that food costs were not to be charged. However, contrary to these
requirements, UAA charged $54,343 of unallowable food and entertainment costs to the
LSAMP award. In addition, graduate student financial-aid totaling $23,750 was
improperly allocated to the LSAMP award. 3 A description of some of the key
components of the total unallowable costs of $78,093 follows:

    •   The UAA Grants and Contract Services office performed a pre-review of
        LSAMP award costs and identified $18,494 of improper food and entertainment
        charges by the Anchorage campus. A large part of the expenses were for lunches
        during weekly student meetings and other food and entertainment costs
        associated with student activities. A more comprehensive review of such
        unallowable costs was completed after the onsite OIG review and identified
        additional charges in the subject cost categories.

    •   OIG transactions testing of LSAMP award costs identified that the Fairbanks
        campus had also charged unallowable food expenditures and financial-aid for
        graduate students. As a result, the LSAMP program office identified an
        additional $22,899 of unallowable food charges and $23,750 of student-aid
        costs. 4


3
         The LSAMP award was limited to providing support only to pre-college and undergraduate
students, not graduate students.
4
         The Fairbanks campus was included as one of the three subrecipients in the LSAMP award
proposal. However, UAA subsequently decided not to issue a formal subaward agreement and opted to
have the Fairbanks campus directly charge expenditures to the LSAMP award.
                                                  5
        The total $78,093 of improper charges identified was or will be removed from the
LSAMP award by cost transfers. According to the UAA Cost Transfer Policy, frequent
and late cost transfers raise serious questions about the reliability of the University's
accounting system and internal controls. Therefore, the Policy states that cost transfers
must be monitored carefully in order to ensure compliance with federal regulations.
However, our analysis of LSAMP award transactions and discussions with University
officials disclosed that cost transfers were frequently used on the subject award. Details
of our limited analysis of cost transfer activity follow:

     •   Thirty-seven percent of the total 7,057 LSAMP transactions were for cost
         transfers associated with the award expenditures totaling $1,206,332.

     •   Fifty-nine percent or $332,650 of the $565,389 originally charged to Other
         Student Aid costs were removed by cost transfers. The PI acknowledged that
         many of these student scholarship costs should not have been charged to the
         LSAMP award. Some of these costs were required to be removed from the
         award to provide adequate funding to pay the UW subaward invoice of $81,994
         discussed below.

     •   Eighty-four percent or $69,225 of the last UW subaward payment of $81,994
         had to be removed by cost transfer because work was performed after UW had
         withdrawn as an Alliance partner from the subject award.

         As of result of the unallowable charges and extensive use of cost transfers, there
is less assurance that the LSAMP award is being properly managed to meet UAA’s
fiduciary responsibilities under the NSF award agreement. Given that NSF recently
awarded an additional increment of $475,198 to the LSAMP award in September 2010, it
is essential for UAA to improve its award management processes to ensure proper
stewardship of the additional funds.

Factors Contributing to LSAMP Award Management Weaknesses

        The identified award weaknesses occurred because of (i) the lack of sufficient
knowledge of federal and NSF award requirements by responsible LSAMP program
officials and (ii) inadequate oversight of award expenditures by the University's Grants
and Contract Services (GCS) staff. Pursuant to UAA's Grants and Contract Services
Information Manual, there is a shared responsibility for proper financial and
administrative management of federal awards by the GCS office, the department business
office, and the principal investigator (PI). The GCS grant coordinator is responsible for
monitoring grant expenditures to ensure compliance with contractual award terms and
conditions. Furthermore, the UAA Manual specifies that the PI and the department
business administrator are responsible to work jointly to manage federal awards.
Specifically, the departmental business administrator is responsible for charging project
costs to appropriate account codes and ensuring that expenditures agree with the budget
as approved by the sponsoring agency. However, the Manual explicitly states that "The
PI has full responsibility for the completion of the scope of work and the correct
allocation of costs to the project according to the budget."

                                             6
        Such shared UAA responsibilities for each federal sponsored project were
established to ensure proper completion of the scope of work and the correct allocation of
project costs according to the approved federal budget. However, discussions with the PI
and GCS officials disclosed that the department business administrators for the LSAMP
award lacked adequate training, experience, and expertise in management of federal
awards. As a result, prudent award management practices were not executed as follows:

   •   Required NSF approval was not obtained for expending $533,144 of budgeted
       subaward funds for other project activities.

   •   UW subaward agreement was not timely established after the LSAMP award was
       received. In addition, documentation was not maintained in project files when the
       University of Washington withdrew as an Alliance partner to support the date
       when subaward costs could no longer be charged, thus resulting in the $69,225
       overpayment.

   •   Extensive charging of expenditures to cost categories that did not agree with the
       approved NSF award budget. For example, student aid/participant support costs
       were originally budgeted at $64,604 or 5 percent of total funds, but actual charges
       totaled $313,239 or 26 percent of total award funds.

   •   Large amounts of unallowable entertainment, food, and graduate student
       financial- aid costs of $78,093 were improperly charged to the award due to the
       lack of knowledge of federal costs principles.

   •   Extensive use of cost transfers indicating a lack of adequate accounting and
       internal controls over LSAMP award expenditures. For example, of the 7,057
       LSAMP transactions in the project cost ledger, 37 percent involved cost transfers.

        These procedural weaknesses evidence that UAA lacked compliance with
established University guidance for proper administrative and financial oversight of
federal sponsored projects. Accordingly, the University's GCS office needs to enhance
its oversight and monitoring activities to ensure that the LSAMP business administrator
and PI are knowledge and possess the required award management expertise for ensuring
that costs charged to the subject award are reasonable, allowable, and allocable as
required by federal and NSF requirements.

         This is particularly important given that, in addition to the LSAMP award, the PI
has multiple sources of other federal and non-federal funding for UAA's Alaska Native
Science and Engineering Program (ANSEP) to increase university recruitment and
retention of STEM students. For example, as previously stated, the NSF award proposal
delineated that an industrial partner was to provide funding annually for student
scholarships. However, these types of costs were charged to the NSF award, even though
they were not originally included in the award proposal. Accordingly, UAA award
management improvements are essential for ensuring that closely related ANSEP
activities, supported by more than one funding source, are allocated to the proper
sponsored project in accordance with the sponsor's approved budget and scope of work.

                                            7
Recommendations

We recommend that the NSF Directors of the Division of Institution and Award Support,
the Division of Grants and Agreements, and Division of Human Resource Development:

1.1    Resolve the $78,093 in questioned food, entertainment, and graduate student-aid
       charges to LSAMP award 0602742.

       UAA Response: UAA agrees with the recommendation and has removed all
       questioned costs from the LSAMP grant.

       OIG Comments: UAA’s actions are fully responsive to the recommendation.
       The University should provide NSF cost transfer documentation clearly showing
       removal of the questioned costs from the LSAMP grant.

1.2    Review UAA expenditure of the $533,144 of LSAMP award funds, originally
       budgeted for subawards, to determine if such costs are allowable and consistent
       with the approved project scope and objectives specified in the award proposal.

       UAA Response: UAA states that there is a lack of clarity in the award process
       because there was no written NSF documentation or a budget sheet indicating that
       the subaward to University of Hawaii (UH) was not to be included as a Pacific
       Alliance partner in the LSAMP award. As directed by NSF program officer, PI
       efforts to identify a suitable Alliance partner to replace UH were not successful,
       thus UAA believes that the LSAMP grant costs incurred should be considered
       allowable.

       OIG Comments: The original LSAMP grant proposal budget submitted to NSF
       includes the UH subaward and was never revised. Any oral discussions and/or
       agreements between NSF program officials and the UAA PI do not supersede the
       written terms and conditions of the LSAMP cooperative agreement, which
       includes the grant proposal budget and establishes the legal binding contract for
       the award between NSF and the University. Therefore, we reaffirm that UAA
       must demonstrate to NSF that its alternative use of budgeted subaward funds for
       other grant purposes were consistent with LSAMP award objectives and were for
       allowable costs.




                                           8
1.3   Require UAA to:

      a. Provide NSF a description and summary schedule of how the $533,144 of
      LSAMP award funds, originally budgeted for subawards, was expended.

                UAA Response: UAA provided a summary schedule of LSAMP grant
                expenditures, by major cost categories, for grant inception through May
                2011 and a description of the various types of expenses included in each
                cost category.

                OIG Comments: Review of UAA’s description of the various cost
                categories disclosed that certain costs included in the “travel” and
                “services” categories need to be re-categorized as “participant support”
                costs to be fully compliant with federal and NSF requirements.
                Specifically, expenditures for travel and/or housing for students attending
                the Summer Bridge Program or participants in other LSAMP meetings,
                conferences, and workshops should be classified as participant support
                costs. Such reclassification will reduce the grant’s indirect costs because
                federal regulations exclude participant support costs from UAA’s indirect
                rate assessment of           UAA needs to carefully review its LSAMP
                grant expenditures to ensure the correct costs are classified in the
                participant support category.

      b. Provide enhanced training to LSAMP program officials to ensure appropriate
      knowledge of federal, NSF, and University award management requirements to
      ensure proper stewardship of award funds.

                UAA Response: UAA agrees with the recommendation and states that the
                Grants and Contract Services office provides both formal and informal
                training activities for all UAA staff and faculty on various federal grant
                management compliance topics. Both the LSAMP PI and Fiscal Manager
                will travel to participate in NSF training for grant management during the
                year.

                OIG Comments: UAA’s actions are fully responsive to the
                recommendation.

      c. Enhance UAA monitoring of the LSAMP award to ensure compliance with
      federal, NSF, and University award requirements. Such enhanced monitoring
      should include at minimum:

           i.      Increased PI oversight of award charges to ensure costs are reasonable,
                   allowable, and allocable and are consistent with the approved NSF
                   proposal budget and scope of work.

                UAA Response: The PI has restructured the Alaska Native Science and
                Engineering Program (ANSEP) to improve his oversight and provide
                better assurance that LSAMP costs are reasonable, allowable, and
                                             9
  allocable and consistent with the approved NSF proposal budget and scope
  of work. Specifically, the Fiscal Manager for the program was replaced
  subsequent to the OIG audit and has and will continue to attend training
  and workshops to develop and maintain knowledge for accounting
  concerns and compliance with OMB Circulars and NSF regulations.

  OIG Comments: UAA’s response meets the intent of the
  recommendation.

ii.   Increased oversight by the Grants and Contract Services office to
      ensure proper management and stewardship of LSAMP award funds.

  UAA Response: UAA agrees with the recommendation. Specifically, the
  Grants and Contract Services (GCS) office has established processes to
  better inform LSAMP Program officials when federal grants management
  training opportunities are available. In addition, GCS has instituted a new
  program to periodically bring together key departmental individuals and
  its grant staff during the life of an award to discuss any financial
  challenges or programmatic risk. As such, GCS is highly encouraging
  such meetings for the LSAMP award as part of his grant monitoring
  activities.

  OIG Comments: UAA’s response meets the intent of the
  recommendation.




                               10
Finding 2 – Improvements Needed in UAA Effort Reporting System

        UAA's labor effort reporting system generally supports payroll charges to NSF
awards; however, certain internal control improvements are needed to ensure full
compliance with all federal and NSF grant requirements. Our limited transactions testing
disclosed in some instances that effort reports were signed by persons without suitable
means of verification, which lessened the reliability of the effort reports to support labor
charged to NSF awards. In addition, our review found that UAA has not established
policies to ensure (i) senior researcher salary charges are limited to two months as
required by NSF guidance and (ii) OMB-mandated independent internal evaluations of
the effort reporting system are periodically performed to ensure the system's integrity.

        Federal regulations 5 require that salaries and wages charged to sponsored projects
be based on payroll records documented in accordance with the generally accepted
practices of colleges and universities. Specifically, the payroll distribution system must
provide for the after-the-fact confirmation of employee activity by a responsible person
with “suitable means of verification that the work was performed.” In addition, the
system will provide for independent internal evaluations to ensure the system’s integrity
and compliance with the standards required by the Federal Government to support
salaries and wages charged to grants. Additionally, NSF grant guidance limits salary
compensation for senior project personnel to no more than two months of their regular
salary in any one year from all NSF-funded grants 6.

        UAA relies on its bi-weekly effort reports or time sheets 7 to support the salaries
charged to NSF grants. These reports must be signed by the employee and certified by
either the PI or supervisor with first-hand knowledge of employee’s work activities.
UAA’s policies allow the labor effort certification to be delegated from the Department
Dean/Director/Supervisor to another individual.

Effort Certification Process Lacks Suitable Means of Verification for All NSF Salary
Charges

        Review of UAA's effort reporting process revealed that some University officials,
who were delegated the authority to certify the reasonableness of NSF salary charges,
lacked first-hand knowledge to determine whether the work was actually performed. Our
limited transactions testing of $33,219 of NSF salary charges for six employees disclosed
that 19 percent of the wages for three employees were inadequately supported by labor
effort reports certified by a department’s business manager instead of the project PI or
supervisor as follows:

5
         Paragraph J.10b of 2 CFR Part 220, Cost Principles for Educational Institutions (Formerly OMB
Circular A-21), issued August 31, 2005.
6
        Chapter V.B.1.a.(ii)(a) of the NSF Award & Administration Guidelines.
7
       UAA uses the terms “effort reports” for exempt employees and “time sheets” for non-exempt
employees.
                                                  11
                  Summary of Sampled Labor Effort Reports Reviewed

                     Total Effort
                        Reports   Certified by PI or   Certified by
                       Reviewed      Supervisor      Business Manager
                           Salary     Salary % to        Salary % to
    Employee Type No. Dollars No. Dollars Total No. Dollars Total
    Postdoctoral &    6 $         3 $            56% 3    $       44%
    PI
    Faculty & PI      3           3             100% 0             0%
    Student           9           9             100% 0             0%
    Student           6           3              54% 3            46%
    Student           8           4              50% 4            50%
    Student           5           5             100% 0             0%
          Totals – 6 37 $33,219 27 $26,895 81% 10         $6,324 19%
          employees


        Even though departmental business managers did not have first-hand knowledge
of employee work activities, such individuals did not obtain "suitable means of
verification" to support their certifications by contacting the employees directly or PIs to
validate the reasonableness of the employee's labor distribution. For example, the
business manager signed the effort reports for one of the PIs reviewed, who worked on
five different projects, without validating with the researcher if the reported effort on
each project was reasonable.

        This weakness occurred because UAA's labor effort policies and procedures did
not define what constituted a "suitable means of verification" and the documentation
required to be maintained in award files. Our discussions with officials of one UAA
department revealed that it was not unusual for business administrators to certify
bi-weekly effort reports for employees working on sponsored projects. Officials stated
they were unaware that such a practice was not in compliance with federal requirements.

Other Effort Reporting Policies Need Improvement

       Furthermore, UAA grant policies did not establish (i) clear limitations on senior
researcher salaries to ensure compliance with NSF's two-month wage limitation or (ii)
periodic and systematic evaluation of the effort reporting system as required by OMB
Circular A-21 requirements. Discussion of these two issues follows:

a. NSF’s Two-Month Rule: The University's policies included no references to NSF’s
   two- month rule that limits salary compensation for senior project personnel to no
   more than two months of an individual's regular salary in any one year. This limit
   includes salary received from all NSF-funded grants. Our review of salary charges
   for one faculty member did not disclose that the individual budgeted and/or charged
   more than two months salary to NSF grants. However, given that 11 percent of the
   $12.8 million awarded by NSF included $1.4 million budgeted for faculty or senior
                                          12
      personnel salaries, it is important for the University to establish formal policy to
      ensure such salaries are compliant with the subject NSF grant requirement. Both
      UAA PIs and department business offices campus-wide need to be clearly aware of
      the NSF salary limitation.

b. Independent Internal Evaluation: The University's effort reporting policy and
   procedures did not provide for "independent internal evaluations to ensure the
   system's integrity" as required by federal cost principles. Discussions with UAA
   officials disclosed that an internal evaluation of the University's effort reporting
   system has never been performed. However, a comprehensive evaluation of the
   system would have likely disclosed the internal control weaknesses noted during our
   review and provided UAA the opportunity to implement improvements to ensure a
   fully compliant effort reporting system.

         UAA lacked comprehensive effort reporting policies and procedures that are in
full compliance with all federal and NSF requirements because the University had not
placed sufficient emphasis on labor effort reporting. The control weaknesses identified
raise concerns about the reliability of UAA effort reports for the $4 million or 31 percent
of total NSF funding budgeted for salaries and wages on its active 29 NSF grants. This is
particularly important given that $1.3 million or 33 percent of the budgeted salaries are
funded by eight Recovery Act grants. With the unprecedented Recovery Act
accountability and transparency goals, improvements in the University's effort reporting
system is essential.

Recommendations

We recommend that the NSF Director of the Division of Institution and Award Support,
coordinate with cognizant audit agency, as needed, to require UAA to enhance its effort
reporting policies and procedures as follows:

2.1      Define what is considered to be a "suitable means of verification" for certifying
         effort reports, as required by federal cost principles, 8 and the documentation
         required to be maintained in project files.

         UAA Response: UAA agrees with the recommendation and is developing and
         testing a new electronic worksheet/effort reporting system to better document
         employee effort. In conjunction with the new system, procedures are being written and
         trainings will be provided to all UAA employees.

         OIG Comments: UAA’s response meets the intent of the recommendation.


8
          Paragraph J.10b.(2)(b), Criteria for Acceptable Methods for Compensation for Personal Services,
of 2 CFR Part 220, Cost Principles for Educational Institutions (OMB Circular A-21), states that “The
method must recognize the principle of after the fact confirmation or determination so that costs distributed
represent actual costs, unless a mutually satisfactory alternative agreement is reached. Direct cost activities
and F&A cost activities may be confirmed by responsible persons with suitable means of verification that
the work was performed. Confirmation by the employee is not a requirement for either direct or F&A cost
activities if other responsible persons make appropriate confirmations.”
                                                      13
2.2   Include NSF’s two-month rule to ensure senior researchers limit salaries received
      from all NSF-funded grants to two months of the individual's regular salary.

      UAA Response: UAA agrees with the recommendation and notes that the Grants
      and Contract Services’ website includes a section for compliance with the NSF
      two-month limitation on a researcher’s regular salary.

      OIG Comments: UAA’s actions are fully responsive to the recommendation.

2.3   Establish a requirement for a periodic independent internal evaluation of the
      payroll distribution and effort reporting system, as required by federal cost
      principles, to ensure its integrity and compliance with federal standards.

      UAA Response: UAA agrees with the recommendation and the University of
      Alaska Internal Auditors have scheduled a periodic review of the payroll distribution and
      effort reporting system. For fiscal year 2012, the audit began on July 15, 2011.

      OIG Comments: UAA’s response meets the intent of the recommendation.




                                             14
Finding 3 – Property Management System Needs Improvement

       UAA needs to improve management of federally-funded equipment to properly
safeguard such assets. Federal regulations 9 establish property management standards and
procedures requiring: maintaining property records with identification numbers;
completing a physical inventory every two years; and establishing a control system to
ensure adequate safeguards to prevent loss, damage, or theft of the equipment.

       To meet the federal standards, UAA complies with the University of Alaska’s
statewide property manual. The manual requires all equipment purchased with federal
funds be affixed with a property tag and a physical inventory to be performed annually.
In order to facilitate its annual physical inventory, UAA uses a bar code scanner program.
Thus, property tags, with bar code identification, are required to be affixed to each piece
of equipment.

       Our review disclosed that UAA equipment records included all data elements
required by federal property management standards and an annual physical inventory had
been conducted. However, the University needs to take timely actions to update
inventory records and affix property tags when equipment is received. Review of two
sampled equipment purchases of $502,222, or 86 percent of total equipment expenditures
incurred between July 1, 2008 and March 31, 2010, identified the following weaknesses:

    •   A mass spectrometer costing $342,310 was delivered in February 2009. At the
        time of our April 2010 onsite review, 14 months later, the required property tag
        had not been affixed.

    •   Six pieces of equipment were purchased with $159,912 of NSF Recovery Act
        funds and delivered in January 2010. At the time of our review, three months
        after receipt, the items had neither been added to the UAA inventory records nor
        affixed with property tags.

       As a result, UAA cannot effectively perform its annual property inventory and
provides less assurance to NSF that equipment funded with grant funds are adequately
safeguarded to prevent loss, damage, or theft. As such, these internal control weaknesses
lessen UAA accountability over the $982,481, or eight percent of total NSF funds,
budgeted for equipment purchases.

        These control weaknesses occurred because UAA lacked sufficient management
oversight and monitoring of the property management function. Specifically, the
University relied upon a sole Property Coordinator for maintenance of property records
and had not established alternative plans to ensure key functions were re-assigned to
other staff during periods of long-term employee absences. The Property Coordinator
stated that she had a backlog of property records after she returned from two recent
long-term absences. In addition, the Procurement Services Director stated that he was
9
         Section .34 of 2 CFR Part 215, Uniform Administrative Requirements for Grants and Agreements
with Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations (Formerly OMB
Circular A-110).

                                                 15
not aware of the backlog issues due to the recent transfer of the property management
function to his department during recent campus reorganization.

Recommendation

We recommend that the NSF Director of the Division of Institution and Award Support,
coordinate with cognizant audit agency, as needed, to require UAA to:

3.1     Establish appropriate Office of Procurement Services management oversight to
        ensure compliance with established University property standards for timely
        tagging of equipment and updating of property records.

        UAA Response: UAA agrees with the recommendation and is providing
        intensive training to ensure federal property is properly handled according to OMB
        Circular requirements and University of Alaska policies and procedures. The UAA
        Associate Vice Chancellor for Financial Services is monitoring this activity.

        OIG Comments: UAA’s response meets the intent of the recommendation.




                                            16
                                                                            Appendix A


                  Background, Objectives, Scope, and Methodology

Background:

         The University of Alaska - Anchorage (UAA) is the state’s largest post-secondary
institution and is one of the three regional university centers in the University of Alaska
system. UAA operates with the mission to discover and disseminate knowledge through
teaching, research, engagement, and creative expression. UAA is an open access
university with academic programs leading to occupational endorsements; undergraduate
and graduate certificates; and associate, baccalaureate, and graduate degrees. In the fall
of 2009, the Anchorage campus had a student body of 15,662 students, 536 regular and
447 adjunct faculty members, and 1,133 other staff members.

         Sponsored programs, including research, service, and instruction occur in many
departments across the campus and are a function of a number of UAA's centers and
institutes. UAA's Office of the Vice Provost for Research and the Graduate School
provides coordination with other units within the University of Alaska and Statewide
Administration on matters of research, compliance, sponsored programs, and federal
initiatives. The Office of Sponsored Programs provides review and signatory authority
for all sponsored proposals submitted to funding sources and the Grants and Contract
Services office provides post-award administration of sponsored programs in concert
with principal investigators and departmental business administrators.

        As of March 31, 2010, UAA had 29 active NSF grants totaling almost $12.8
million with reported cumulative expenditures of approximately $6.4 million. Of these
29 grants, eight awards or $3.4 million were funded by the American Recovery and
Reinvestment Act of 2009 (Recovery Act or ARRA). One of the primary goals of the
Recovery Act is to foster unprecedented levels of accountability and transparency in
government spending. The table below summarizes the financial information on NSF
grants awarded to UAA.




                                            17
                Break-down of NSF Funding by Major Budget Categories

        Category                       ARRA                   Non-ARRA                       Total
Salaries
Fringe Benefits
Equipment
Travel
Participant Support
Subawards
Other Direct Costs 10
   Total Direct Costs
F&A (Indirect) Costs
    Total Grant Costs           $3,386,235 100%            $9,378,666 100%          $12,764,901 100%


Review Objective:

        The objective of our limited scope review was to evaluate whether UAA had
established an adequate system of internal control to provide reasonable assurance that
NSF grant funds were administered in accordance with federal grant regulations and NSF
award terms and conditions.

Scope and Methodology:

       This review was part of an on-going series of OIG evaluations being performed to
provide oversight of the $3 billion in NSF ARRA funding. UAA was chosen for review
because of the significant increase in total NSF funding in the last two years. From 2008
to 2010, total NSF funding almost doubled from about $7 million to almost $13 million,
of which $3.4 million was provided by the Recovery Act.

        Our review included NSF grant charges as of March 31, 2010, with transactions
testing selected from FY 2009 and 2010 expenditures. While we reviewed UAA's
internal controls for management of federal grant funds, the evaluation was limited in
scope because only minimal transactions testing was performed to assess whether UAA
was complying with its established institutional policies and procedures. Transactions’
testing focused on ARRA grants, but was extended to other NSF grants as required,
because Recovery Act expenditures were minimal at the time of our April 2010 onsite
review. Specifically, our transactions review was limited to 57 items totaling $394,440
of the $3,937,322 incurred between July 1, 2008 and March 31, 2010. Our sample was
judgmentally selected based primarily on large dollar items in the following cost
categories reviewed: salaries, fringe benefits, procurements, equipment, travel,
participant support, and subawards. In addition, our review included the following steps:

•    Reviewed criteria applicable to federal grants management, including the Office of
     Management and Budget (OMB) and NSF guidance.

10
         Other Direct Costs includes Materials & Supplies, Publications, Consultant Services, Computer
Services, and Other Costs.
                                                   18
•   Assessed whether UAA policies, procedures, and processes for federal grants
    management were consistent with OMB and NSF requirements in the following
    areas: time and effort report, cost sharing, subawards and subrecipient monitoring,
    procurement, property and equipment, participant support, travel, indirect costs,
    consultants, quarterly financial reports, and annual and final project reports.

•   Interviewed cognizant UAA officials, including PIs, department business managers,
    and Grants and Contract Services office staff, to gain an understanding of their role in
    the grant management process.

•   Conducted analytical procedures and limited non-statistical sampling of NSF grant
    charges in major cost categories to assess the adequacy of supporting documentation
    and compliance with established UAA grant management processes and related
    controls.

•   Interviewed NSF program officials about UAA's Louis Stokes Alliance for Minority
    Participation (LSAMP) grant. Reviewed the applicable NSF solicitation for the UAA
    LSAMP grant, the UAA grant proposal for the subject award, and applicable NSF
    award documentation and correspondence.

•   Discussed fieldwork results with UAA management officials and NSF program and
    grant management officials.

        The onsite UAA review work was performed from April 26 -30, 2010, with
additional information obtained through November 2010. We conducted this
performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan the review to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for the
findings and conclusions contained in the report.




                                             19
Appendix B
                                                         Schedule A
                                                      of Appendix B

Alaska Native Science & Engineering Program (ANSEP)
        University of Alaska Anchorage (UAA)
   Schedule A
of Appendix B
